<html>
<title> - TRANSITION ASSISTANCE FOR MEMBERS OF ACTIVE DUTY RESERVE AND NATIONAL GUARD, AND EDUCATION BENEFITS FOR THE TOTAL MILITARY FORCE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 TRANSITION ASSISTANCE FOR MEMBERS OF ACTIVE DUTY RESERVE AND NATIONAL 
       GUARD, AND EDUCATION BENEFITS FOR THE TOTAL MILITARY FORCE

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 19, 2006
        HEARING HELD AT ELLSWORTH AFB, RAPID CITY, SOUTH DAKOTA

                               __________

                           Serial No. 109-53

                               __________

       Printed for the use of the Committee on Veterans' Affairs












                                  -----

                      U.S. GOVERNMENT PRINTING OFFICE
28-449                       WASHINGTON  :  2007

---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet:  bookstore.gpo.gov Phone:  toll free (866)512-1800; 
DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 

























                     COMMITTEE ON VETERANS' AFFAIRS

                     STEVE BUYER, Indiana, Chairman
MICHAEL BILIRAKIS, Florida           LANE EVANS, Illinois, Ranking
TERRY EVERETT, Alabama               BOB FILNER, California
CLIFF STEARNS, Florida               LUIS V. GUTIERREZ, Illinois
DAN BURTON, Indiana                  CORRINE BROWN, Florida
JERRY MORAN, Kansas                  VIC SNYDER, Arkansas
RICHARD H. BAKER, Louisiana          MICHAEL H. MICHAUD, Maine
HENRY E. BROWN, Jr., South Carolina  STEPHANIE HERSETH, South Dakota
JEFF MILLER, Florida                 TED STRICKLAND, Ohio
JOHN BOOZMAN, Arkansas               DARLENE HOOLEY, Oregon
JEB BRADLEY, New Hampshire           SILVESTRE REYES, Texas
GINNY BROWN-WAITE, Florida           SHELLEY BERKLEY, Nevada
MICHAEL R. TURNER, Ohio              TOM UDALL, New Mexico
JOHN CAMPBELL, California            JOHN T. SALAZAR, Colorado
                   JAMES M. LARIVIERE, Staff Director
                                 ------                                

                  Subcommittee on Economic Opportunity

                    JOHN BOOZMAN, Arkansas, Chairman
RICHARD H. BAKER, Louisiana          STEPHANIE HERSETH, South Dakota,
GINNY BROWN-WAITE, Florida             Ranking
JOHN CAMPBELL, California            DARLENE HOOLEY, Oregon
                                     LANE EVANS, Illinois


























                            C O N T E N T S

                              ----------                              

                             June 19, 2006

                                                                   Page
Transition Assistance for Members of Active Duty Reserve and 
  National Guard, and Education Benefits for the Total Military 
  Force..........................................................     1

                           OPENING STATEMENTS

Chairman John Boozman............................................     1
    Prepared statement of Chairman Boozman.......................    37
Hon. Stephanie Herseth, Ranking Democratic Member................     2

                               WITNESSES

Aune, Chief Master Sergeant Clyde W., Command Chief, 28th Bomb 
  Wing, Ellsworth Air Force Base, Rapid City, SD.................     4
    Prepared statement of Chief Master Sergeant Aune.............    42
Brown, John L., South Dakota District Director, U.S. Small 
  Business Administration........................................    27
    Prepared statement of Mr. Brown..............................    70
Fillman, William, Director, Central Area, Veterans Benefits 
  Administration, U.S. Department of Veterans Affairs............    29
    Prepared statement of Mr. Fillman............................    74
Gerlach, Andy, Deputy Secretary, South Dakota Department of 
  Military and Veterans Affairs, and Major, South Dakota Army 
  National Guard, on behalf of Major General Mike Gorman, 
  Adjutant General, South Dakota National Guard, and Secretary, 
  South Dakota Department of Military and Veterans Affairs.......    10
    Prepared statement of Major Gerlach..........................    51
Kolden, Todd, Veterans' Services State Coordinator, South Dakota 
  Department of Labor, on behalf of Pamela Roberts, Secretary, 
  South Dakota Department of Labor...............................    14
    Prepared statement of Mr. Kolden.............................    57
McClung, Captain Chennel, Officer in Charge of Personnel 
  Employments and Relocations, 28th Mission Support Squadron, 
  Ellsworth Air Force Base, Rapid City, SD.......................     3
    Prepared statement of Captain McClung........................    40
McNulty, David, Director for Veterans Employment and Training for 
  Wyoming, U.S. Department of Labor, on behalf of Earl R. 
  Schultz, State Director--South Dakota, Veterans' Employment and 
  Training Service, U.S. Department of Labor.....................    25
    Prepared statement of Mr. Schultz............................    64
Mitchell, Staff Sergeant Ann M., United States Air Force, 
  Ellsworth Air Force Base, Rapid City, SD.......................     6
    Prepared statement of Staff Sergeant Mitchell................    49
Moore, Karen, Core Compliancy Manager, Transition Assistance 
  Program, Family Support Center, Ellsworth Air Force Base, Rapid 
  City, SD.......................................................    12
    Prepared statement of Ms. Moore..............................    54
Summerside, George W., Veterans Education Program Specialist, 
  South Dakota State Approving Agency............................    17
    Prepared statement of Mr. Summerside.........................    59
























 
 TRANSITION ASSISTANCE FOR MEMBERS OF ACTIVE DUTY RESERVE AND NATIONAL 
       GUARD, AND EDUCATION BENEFITS FOR THE TOTAL MILITARY FORCE

                              ----------                              


                         MONDAY, JUNE 19, 2006

                  House of Representatives,
            Subcommittee on Economic Opportunities,
                            Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9:10 a.m., at 
the 28 Operation Support Squadron Auditorium, 1956 Scott Drive, 
Ellsworth AFB, South Dakota, Hon. John Boozman (chairman of the 
subcommittee) presiding.
    Present: Representatives Boozman and Herseth.
    Mr. Boozman. The hearing will come to order. I'm delighted 
that our Ranking Member Stephanie Herseth has invited the 
Subcommittee on Economic Opportunity to visit South Dakota to 
hear from service members and veterans on how well the 
Transition Assistance Program and the GI Bill are doing.
    Before we begin, I'm sure everyone has heard about the 
recent loss of veterans' data at the VA. Tomorrow Ms. Herseth 
and I will hold a hearing to find out what effect that loss 
might have on the benefits programs under our jurisdiction. I 
want to assure each of you that we will do everything possible 
to minimize the damage that might have been done. I wish we 
could guarantee veterans that they will not be affected, but 
that is not yet to be determined.
    In the meantime, I urge each veteran to check their credit 
files, watch their monthly statements very closely, and take 
aggressive action if something appears amiss.
    If you have access to the Internet, the Committee website 
www.veterans.house.gov has several links to information and 
assistance.
    Normally I make our Ranking Member Ms. Herseth listen to me 
as I ramble on about the various things having to do with the 
programs that we're going to talk about, but today I just want 
to say that we really do enjoy working with Ms. Herseth. She's 
truly been a pleasure as our Ranking Member. The Veterans 
Affairs Committee is very bipartisan. We work really hard. Most 
of us--in fact, all of us--have asked to serve on this 
Committee. It's not something that we were told, ``You've got 
to do this.'' Most of us--in fact, all of us--like I say, have 
asked to be on that Committee in an effort to help veterans. We 
appreciate all that she does for veterans, and we'll turn 
things over to Ranking Member Herseth.
    [The statement of Mr. Boozman appears on p. 37.]
    Ms. Herseth. Well, thank you, Mr. Chairman, for accepting 
the invitation to come to South Dakota. A few months ago, I 
accepted the invitation of Chairman Boozman to join him in the 
great State of Arkansas where we held a hearing similar to this 
one today, a series of hearings we've been having at the 
Subcommittee level to evaluate the effectiveness of our 
Transition Assistance Programs for our active duty service 
members as they transition to civilian life, to talk with our 
leadership of the National Guard and Reserve components in our 
states and other states around the country, to talk about the 
importance of the demobilization process for our members of the 
Guard and Reserve returning home from often lengthy deployments 
in Iraq and Afghanistan and elsewhere around the world, as well 
as gauging the interest in and accepting ideas about how to 
effectively modernize the Montgomery GI Bill to meet the needs 
of active duty servicemen and women, to meet the needs of our 
National Guard and Reservists, and what we do to make those 
benefits more flexible for all of the men and women who serve 
in the Armed Forces as they seek opportunities in the civilian 
sector after they've served the country so admirably.
    But it is wonderful to be able to host you here in South 
Dakota, members of your Committee staff that are traveling with 
you, I want to thank our Air Force escorts on the trip in 
making this a time worth everyone's while here this morning, 
but also taking advantage of what South Dakota has to offer: 
The beautiful Black Hills and Mt. Rushmore where we were last 
night.
    And I think that we're all in agreement, as the Chairman 
said, that this is a very bipartisan full Committee and a very 
bipartisan Subcommittee. I've certainly enjoyed working with 
Chairman Boozman on a number of issues under the purview of our 
jurisdiction, whether it be education, employment, transition, 
job training, other programs to ensure a level of oversight to 
make them as effective as possible because we know that the 
young men and women who choose to serve in our Armed Forces 
deserve the very best while they're serving and after they're 
serving. So thank you for your interest in being here today and 
we look forward to hearing the testimony of our panelists. 
Thank you again, Mr. Chairman.
    Mr. Boozman. Thank you. We've had several hearings on 
transition assistance and the GI Bill including field hearings 
in New Hampshire and Arkansas. Each has provided the 
Subcommittee with additional insights regarding the 
effectiveness of the programs, especially how they apply to the 
members of the National Guard and Reserves.
    TAP is important in the transition process for both active 
duty members and those in the Selected Reserves.
    We've seen that when commanding officers and their State 
officials make a concerted effort to use TAP to help stabilize 
the lives of their active duty, Guard and Reserve members 
returning from extended active duty, post-deployment problems 
decrease and retention rates increase.
    Post-deployment issues for the Guard and Reserves are a bit 
different from those facing the regular forces. In many ways, 
those issues are more difficult because of the dispersion of 
the unit upon return. In fact, by denying the mutual support of 
unit members with whom members have shared tough times, I 
believe the current 90-day restriction placed on drilling 
following extended deployment is a mistake and may foster 
higher rates of stress-related issues such as those involving 
other family members and risky behavior. I'm looking forward to 
hearing from officials on how they are meeting the needs of 
their members.
    You may have heard that Steve Buyer, the Chairman of the 
House Veterans Affairs Committee, has expressed his support for 
a modernized GI Bill, and I for one, welcome his initiative. 
The Montgomery GI Bill has served the nation's veterans well 
for 20 years, but with the prospect of continued integration of 
Guard and Reserve forces with the regular military, we need to 
look at what will make that benefit more relevant to today's 
operational climate. This will likely be a very expensive 
undertaking, one that will probably take some time to do. For 
those who have not known the history of the Montgomery GI Bill, 
it took seven years to enact it.
    Let's start with our first panel. First of all, I know some 
of you all will drift in and out and that's fine to do. I 
really do want to thank everyone for their hospitality. We'll 
talk about this a little bit later. This is the first time that 
I've been to this part of the country for any length of time, 
and we really had a good time. The community's great. Seeing 
Mt. Rushmore in the evening, lit up was tremendous. The 
Subcommittee thanks you for your hospitality. It's been great 
so far. Hopefully it will continue until we get on the plane.
    On this panel we have Captain Chennel McClung, Command 
Chief Sergeant Clyde Aune, and Staff Sergeant Ann Mitchell. 
Let's begin with Captain McClung and we'll go right down the 
line. Captain?

  STATEMENT OF CAPTAIN CHENNEL McCLUNG, OFFICER IN CHARGE OF 
  PERSONNEL EMPLOYMENTS AND RELOCATIONS, 28th MISSION SUPPORT 
            SQUADRON, ELLSWORTH AFB, RAPID CITY, SD

    Captain McClung. Good morning, Mr. Chairman, Committee 
Members. I'm Captain Chennel McClung from the 28 Mission 
Support Squadron here at Ellsworth, and I'll start this morning 
by talking about the Transition Assistance Program.
    I went through the Transition Assistance Program after 
learning that I was eligible for this first round of Officer 
Force Shaping. The Air Force is attempting to shorten up their 
forces and the first round of Officer Force Shaping involved 
the 2002 and 2003 year groups of lieutenants. The board 
convened and the results came out in May and fortunately, I was 
not force shaped out, but I did go through the Transition 
Assistance Program just in case I were to be force shaped out 
and would have to separate this year, and I did learn a lot 
more than I thought I would when I first walked in; basically 
everything from how to do a resume, how to start a small 
business, how I could use my Montgomery GI Bill after getting 
out, information on home loans, and anything I needed to be 
able to help myself transition from active duty to being a 
civilian.
    My position is a little bit unique, but not too much. I am 
married to another military member, so I wasn't worried about 
things like benefits, health insurance and things like that, 
but you do grow accustomed to a two-income household.
    So being able to find work after making the transition was 
a concern of mine, and I am very confident that after going 
through the TAP program, I would not have been out of work long 
given the tools that I picked up from the program. It was very 
helpful. There were about 30-some-odd other people going 
through at the same time that I did, and it seemed to--it 
seemed to help pretty much everyone that was there.
    It's a great benefit. It really is.
    [The statement of Captain McClung appears on p. 40.]
    Mr. Boozman. Chief Master Sergeant Aune.

   STATEMENT OF CHIEF MASTER SERGEANT CLYDE W. AUNE, COMMAND 
CHIEF, 28TH BOMB WING, ELLSWORTH AIR FORCE BASE, RAPID CITY, SD

    Master Sergeant Aune. Yes. I really appreciate the 
opportunity to talk with you today about the Transition 
Assistance Program, and I'd like to share a comment or two 
about the Montgomery GI Bill as well. And so we tried to put 
together, I think, some folks up here today representing many 
different aspects of the military. I happen to be the only one 
of the three of us not married to another military member so I 
can share that particular side of the equation with you.
    In my case, I joined the Air Force 28 years ago, and if we 
recognize that prior to joining the Air Force, I had only 
worked in one job. That was a job I filled out an application 
for and was asked if I could start that same evening.
    So I sit before you now 46 years old and ready to leave the 
Air Force having never, ever interviewed for a job other than 
the one I currently hold and that's a military one. I have 
never written a resume. I filled out one application as a high 
school student and that's the only application I've ever filled 
out in my life. And so if you just recognize then that people 
in my particular situation have to count on something like this 
Transition Assistance Program to prepare us for this 
significant transition into what, for many of us, is our first 
time ever competing for employment in the civilian sector.
    My wife was able to attend with me. My current position 
dictates that my wife attend many functions with me and, as a 
result, has chosen not to be employed during the two years that 
I've spent here at Ellsworth, and so she was able to attend the 
Transition Assistance Program and the three-day briefings with 
me and came away from that with a tremendous amount of 
information and knowledge that I regret, frankly, that every 
one of our spouses could not come away with that same thing.
    And so in spite of the tremendous program that our Family 
Support Center has put together and puts in front of us here 
specifically at Ellsworth, were it that I could ask for any 
improvement in this program not specific to Ellsworth, it would 
be that spouses would have the opportunity to attend so that 
they could also understand the tremendous variety of benefits 
available to us.
    We were talking up here before we started about retirees 
we've all known who tend to pass away a very short time after 
retiring. In my case working for a supervisor here, a Master 
Sergeant who, 11 days after retiring, was walking out to his 
mailbox and died of a heart attack halfway to that mailbox and 
left a spouse then completely unaware of what benefits she may 
be entitled to now.
    My wife, like me, took a tremendous amount of notes at the 
Transition Assistance Program seminar and came away from there 
meeting with our Unlisted Spouses Group on Base recommending 
that each and every one of them has to make time, has to take 
time off work, has to arrange for child care such that they 
also could attend and come to understand the tremendous range 
of benefits that exist.
    Our Transition Assistance Program is just a tremendous 
three days' worth of information to help us prepare for not 
only what I've talked about, filling out applications, resumes, 
but also conducting mock interviews, something many of us have 
never done in our lives, and conducted by human resources 
people from the surrounding community that can help prepare us 
for what we will face, access to what our veterans' benefits 
are and what time lines exist that we must be knowledgeable of 
in order that we don't sacrifice any of those benefits.
    As an example, I learned for the first time in my life you 
have to enroll for VA healthcare within one year of retirement. 
I learned that you have to convert to Veterans Group Life 
Insurance within four months of retiring or you would have to 
complete a complete physical in order to reapply for the VGLI. 
And then also applying for disability. Having served 28 years, 
I think very few people would serve that length of time and not 
have some sort of medical issues they had incurred during that 
period of service, and that number--or those disabilities, I 
think, will only increase because of our service in Iraq and 
Afghanistan.
    So learning that we don't have access to those--or I should 
say, we would not be compensated for those disabilities until 
the day that we apply. This helps us all understand how 
important those time lines are.
    And so a last few comments then about the Montgomery GI 
Bill. I would prefer to speak about the estimated 77,000 of us 
on active duty in the Air Force today that fell between the old 
GI Bill and the new Montgomery GI Bill and entered our Air 
Force during the time I mentioned. The education benefit was 
VEAP or Veterans Education Assistance Program.
    Like many others who came in my same time, we were called 
together in the Base Theater on this base and counseled by our 
own Education Office that this was not a good benefit and was a 
benefit that we should frankly decline. Being a good airman at 
that time, I knew how to take direction and I did decline as 
did many of my counterparts and will now leave our Air Force 
without any education benefit. And so my plea would be a 
recognition of those men and women who followed direction given 
to them by their very Education Offices and declined VEAP.
    Thank you.
    [The statement of Chief Master Sergeant Aune appears on p. 
42.]
    Mr. Boozman. Sergeant Mitchell. Thank you.

STATEMENT OF STAFF SERGEANT ANN M. MITCHELL, UNITED STATES AIR 
        FORCE, ELLSWORTH AIR FORCE BASE, RAPID CITY, SD

    Sergeant Mitchell. Good morning. I'm Staff Sergeant Ann 
Mitchell, and I thank you for the opportunity to speak here 
today. I'll be sharing a brief summary of my situation and the 
Transition Assistance I have received.
    I have been in the Air Force for seven and a half years and 
I just got back from my fifth deployment. While I was deployed 
this last time to Kyrgyzstan, I was 100 percent sure that I was 
going to get out of the service. I was tired of all the 
deployments and I was not really happy with where I was 
working. So after talking it over with my husband, who is also 
Active Duty, we decided it would be better if I just got out.
    With this decision in mind, I started looking for jobs in 
the local area and I also got scheduled to attend the 
Transition Assistance Program. This class really helped me with 
all my doubts about getting out. I especially liked the 
veterans that came in and talked to us about numerous topics to 
include our benefits, resumes, cover letters, etc. They also 
told us that we could go downtown to their office for more 
assistance if we needed. In my opinion, this was an excellent 
class for transitioning people that are getting out of the 
service into civilian life.
    But as time went on, I changed my mind about getting out 
and staying in about a hundred times. I came into the Air Force 
to go to school, to travel around the world, and have a 
guaranteed paycheck. I just kept thinking about all the great 
benefits that we have in the military, and the more I looked 
for jobs around here as a civilian, the more I was thankful 
about being in. I guess I'm really thankful to have job 
security, equal opportunity, education, and medical benefits, 
travel opportunities, and the list could go on. So I guess this 
all outweighed my initial decision about getting out because I 
was scared about leaving my family all the time. I guess if my 
husband and I made it through seven deployments already, we can 
make it through anything as long as we keep doing what we are 
doing.
    I am so proud to be in the United States Air Force and to 
be a part of something larger than myself. Thank you again for 
hearing my testimony today.
    [The statement of Staff Sergeant Mitchell appears on p. 
49.]
    Mr. Boozman. Thank all of you very much.
    Ms. Herseth.
    Ms. Herseth. Thank you, Mr. Chairman, and thank you for the 
testimony. It brings up a number of questions based on each of 
your separate experiences with TAP. And so if I could start 
with Master Sergeant, do you think in your experience, in your 
28 years and--well, let me ask you first, how many people 
participated in the seminar with you, because I know that 
Captain McClung said about 30 others participated with her. Is 
that about the size of the group that participated?
    Master Sergeant Aune. That's correct, there were 26 in the 
seminar that my wife and I attended.
    Ms. Herseth. Okay. And the same with you then, is that 
what----
    Sergeant Mitchell. I was in the same class with Captain 
McClung.
    Ms. Herseth. All right. Do you think that the TAP program 
should be modified depending on whether or not you've been on 
active duty for 20-plus years or, for four to six years, 
whether or not you have a spouse who's not also in active duty? 
Do you think it should? Maybe that's what they did in your case 
where most of the other participants were also transitioning 
out after 15, 20, 25 years or more. Was that the case? Was it 
sort of adapted to meet the needs of longer-serving members of 
the Air Force?
    Master Sergeant Aune. Okay. In the TAP seminar we were all 
asked to come in civilian clothing so that there's a beginning 
and a realization of the fact that it's time to start thinking 
about another way of life. And in my personal opinion, there 
was great value in the wide range of the service options. In 
other words, from young folks like her (indicating) to people 
at my end of the scale so that the questions that each of us 
asked seemed to bring to light things that we would not have 
otherwise considered or thought of.
    So I felt no need or reason to separate or segregate based 
on time of service or retiring at 20-plus years or separating 
early in your career or, frankly, being married to a military 
member or a civilian member. I saw no need to separate 
whatsoever. In fact, I felt great value in all of us being 
there at the same time.
    Ms. Herseth. And I noticed some nodding of the heads by the 
two of you, would you agree with that statement?
    Captain McClung. [Nodding head up and down.]
    Sergeant Mitchell. [Nodding head up and down.]
    Ms. Herseth. And then I know you mentioned maybe one way to 
improve it is extending that opportunity to spouses.
    Master Sergeant Aune. Yes.
    Ms. Herseth. So as you're taking the notes and because of 
the wide range of benefits and other information presented over 
the period of the program, it's always helpful to have sort of 
two eyes. And so do you think that there are other factors that 
we could consider as we work with those who administer the TAP 
program that either of the other two witnesses would--a follow-
up after a certain period of months, being able to talk a 
little bit about how some of the--not so much the resume-
writing, but looking through how job applications have changed, 
as information technology has changed dramatically as well. Any 
other thoughts on how we might be able to improve the program?
    Sergeant Mitchell. Well, I think they keep it pretty open 
as far as if you need help, their doors are open, and the 
veterans downtown are really open with helping everybody. So I 
don't think there's any other--I mean, I think it was a great 
class and they covered all aspects.
    Master Sergeant Aune. My main concern, if we consider the 
Survivors Benefit Plan, if you're familiar with this program, 
the Survivors Benefit Plan requires a spouse's signature if the 
active duty member is going to decline anything other than the 
maximum coverage allowed under the Survivors Benefit Plan. So 
my wife had to come with me to our military personnel flight 
and receive a briefing on the Survivors Benefit Plan, what does 
that benefit entitle, and then if we chose to receive anything 
less than the maximum benefits, she would have to sign saying 
she agreed with that decision.
    And yet, that's important. I think that's a really good 
plan, but what I'm concerned about is that the access spouses 
would have to the tremendous array of benefits I have earned as 
a military member which she otherwise would be ignorant to 
because she's not a military member. We currently do nothing to 
safeguard her access to or knowledge of those benefits.
    Ms. Herseth. Thank you. I don't have further questions at 
this time other than just to acknowledge the point that you 
made about a gap that exists here based on advice given as it 
related to the value of the educational benefit for the 77,000-
plus individuals that you've identified. Geoff and I have 
talked about this and we know that this is an ongoing problem, 
and we'll certainly work with the Chairman and the Committee 
staff and the other members on the Committee to keep finding 
ways to address this in light of the situation where you find 
yourselves now and the importance of receiving--and that really 
goes to the flexibility of the benefits that are provided and 
how we compensate for some of what happened in the transition 
from the older GI Bill to the change that we made a number of 
years ago. So thank you for your time in that regard.
    Master Sergeant Aune. Appreciate it.
    Mr. Boozman. We've really got an interesting panel because 
we've got three kinds of unique situations. We have someone 
that has been in and decided to retire, has made plans; someone 
else that with force reduction, felt like there might be such 
that you might have to separate; and then somebody that had not 
been in as long, but just decided that you needed to get out. 
And yet, with all those disparate motives being there, it seems 
like the course was very beneficial to everybody, so that's 
what we like to hear.
    One of the things, as we've talked to people, because of 
your testimony, because of your experience, something I felt 
like, and I don't want to influence you, but is TAP a program 
that needs to be mandatory in certain periods through people's 
careers? One of the problems that we've heard is that if you 
take the TAP program and you're not planning on separating 
right then, then maybe there's a stigma attached as to, such 
as, why are you doing this?
    What are your thoughts as far as making it such that people 
are encouraged, if not required, but encouraged during various 
parts of their career to take the program rather than when they 
feel like they're going to separate?
    Captain McClung. I think it would be a great idea if more 
people who felt like they may separate or retire at some point 
were encouraged to go to the TAP program, but I think for the 
most part, people are--I didn't feel a stigma going to the 
class; you know, I'm going to jump ship or get out or anything. 
It was just, kind of protecting myself against not being 
educated enough to be able to fend for myself if I did happen 
to separate from the service. Again, the class was a great 
benefit.
    To piggyback on the couples attending, I think it's great. 
There were, I think, two mil to mil couples that were there 
during our class and they seemed to get a lot more out of it. I 
think if more spouses were educated on the benefits that they 
would get if their spouse were to separate or retire from the 
service, it would help a lot of people. I see so many widows 
coming in to speak to our Casualty Assistance Rep, that their 
spouse had passed away, had been retired for so many years and 
they declined their benefits, and nine out of ten of them will 
tell you, ``If I knew exactly what I was entitled to, I would 
not have let him or her make that decision.''
    Master Sergeant Aune. I would just like to be clear here, 
you referred to a stigma attached to attendance at TAP and 
perhaps a negative stigma, like, ``What are you doing,'' 
considering perhaps some other course of action. The reality is 
that, I think, in today's Air Force we recognize that many who 
want to continue serving will not be allowed to serve in our 
Air Force because of the reductions that we are going through. 
And so there's no stigma, in my opinion, attached to attendance 
whatsoever. In fact, we highly encourage folks to go twice: One 
at two years or more out and one within the year in which you 
are separating or retiring.
    Mr. Boozman. Well, I appreciate that, we've visited with 
lots of different folks in lots of different ranches and that's 
not always the case. I really like your suggestion.
    Seems like all of you are signing on that, the spouses 
learn a lot. What can we do to make it such that it's easier 
for spouses to attend? We live in a very active world and it is 
tough, sometimes with little ones, most of the time working. Do 
we need to talk about some night opportunities or what would be 
easier for--to make it such that we can actually do that?
    Master Sergeant Aune. Okay. So we currently do what we call 
Heart Link. This is another fantastic program run in our Family 
Support Center. This is to indoctrinate people who are new to 
our Air Force. Primarily that's our target audience, those who 
are new to our Air Force, and here's all that's available on 
the Base to help you get indoctrinated to the military way of 
life.
    We conduct these in the evenings and then child care is 
provided and so this affords then active duty members and their 
spouses to attend together and know that their children are 
just down the hall being cared for. It seems to me--my wife and 
I discussed this at great length trying to figure out how could 
we get spouses to this TAP seminar because, the reality is most 
of our spouses work. I mean, that's just the way it is. We're 
two-income families today; that's the norm. And with 64 percent 
of our Air Force--approximately 64 percent of our Air Force 
married today, that's the norm as well, that we have a lot more 
spouses than not.
    So evening seminars is the only answer that we could come 
up with that you would have to extend--these were three eight-
hour days, and so I'm not going to be very successful in three 
eight-hour nights after the spouses have already worked that 
day and with the child care issue. So it would certainly have 
to be stretched out over a longer period, but it seems to me 
that evenings are the only way to ensure the largest number of 
spouses could attend.
    Mr. Boozman. Yesterday, somebody made the comment that you 
recruit the individual and then in trying to encourage, 
retention, you recruit the family. And probably you need to 
have, it sounds like, what you're doing here is that we almost 
need the transition of the family also rather than just the 
individual.
    Have you got anything else?
    Ms. Herseth. I don't have anything else.
    Mr. Boozman. Is there any other thing that you'd like to 
add? You've been very, very helpful. Are there any other 
changes that you'd like for us to consider in the TAP program? 
We appreciate your comments on the GI Bill. Are there any other 
things that you think we should look at or----
    Master Sergeant Aune. No, sir. We really appreciate the 
opportunity to talk to you.
    Mr. Boozman. Well, thank you very much for being here. We 
appreciate your testimony and taking the time to come and share 
with us. It is important and especially, I think that the 
family and the spouse and other things that you've given us are 
very, very important. It sounds like the program here is doing 
quite well. Thank you very much.
    Mr. Boozman. Let's go ahead and have the second panel. With 
us is Mr. Andy Gerlach, the Deputy Secretary of the South 
Dakota Department of Military and Veterans Affairs, Ms. Karen 
Moore, the Community Readiness Consultant and Director of the 
Transition Assistance Program for Ellsworth Air Force Base; Mr. 
Todd Kolden, the Veterans' Services State Coordinator for the 
South Dakota Department of Labor; and finally, Mr. George 
Summerside, the Education Program Representative for the South 
Dakota Division of Veterans Affairs. Let's begin with Mr. 
Gerlach.

   STATEMENT OF ANDY GERLACH, DEPUTY SECRETARY, SOUTH DAKOTA 
 DEPARTMENT OF MILITARY AND VETERANS AFFAIRS, AND MAJOR, SOUTH 
  DAKOTA ARMY NATIONAL GUARD, ON BEHALF OF MAJOR GENERAL MIKE 
  GORMAN, ADJUTANT GENERAL, SOUTH DAKOTA NATIONAL GUARD, AND 
  SECRETARY, SOUTH DAKOTA DEPARTMENT OF MILITARY AND VETERANS 
                            AFFAIRS

    Mr. Gerlach. Good morning, Mr. Chairman, Congresswoman 
Herseth. It's great to have you in South Dakota, sir. Great to 
host you, and great to always see the Congresswoman. I 
appreciate the opportunity to testify today. In holding this 
hearing, I think you're going to hear some very good testimony 
by all groups on issues that are important to all of us in 
South Dakota and veterans.
    I am testifying today on behalf of Major General Mike 
Gorman, Adjutant General for the South Dakota National Guard 
and Secretary of the Department of Military and Veterans 
Affairs. My name is Andy Gerlach. I'm the Deputy Secretary for 
the department, a Major in the South Dakota National Guard, and 
a veteran.
    This morning I would like to share with the Committee 
information on our Readjustment Program who assists the local 
War on Terror veterans, their families, employers, and South 
Dakota communities. South Dakota's outreach effort has been a 
partnership of State government and the Federal government 
along with the private sector organizations and individuals 
across South Dakota.
    Since the beginning of the War on Terror, South Dakota has 
had over 5500 new veterans, and our overall veteran population 
is nearing an all-time high. Of the 5500 new veterans, over 
two-thirds are members of the National Guard and Reserves who, 
after their mobilization, have returned to South Dakota to 
continue their lives.
    Shortly after the first of our National Guard units was 
mobilized in late 2003, the Department of Military and Veterans 
Affairs saw the need to establish the Readjustment Program for 
South Dakota's returning veterans. In addition, we recognize 
the program needed to include the service member families, 
employers, and the communities to which they were returning.
    From this concept, our Readjustment Task Force was 
established. The Task Force is headed by the Department of 
Military and Veterans Affairs and directs all facets of service 
member readjustment and transition in South Dakota. Along with 
the Department of Military and Veterans Affairs, the Task Force 
includes representation from the State Division of Veterans 
Affairs, South Dakota National Guard, the State Department of 
Human Services, the South Dakota Council on Mental Health 
Centers, the Department of Labor in South Dakota, Veterans' 
Administration, and the Veterans Administration Vet Centers.
    In South Dakota our readjustment effort has been far-
reaching and begins well before the service member returns 
home. Teams made up of representatives from each of the Task 
Force organizations provide assistance in the following areas. 
Family support briefings that begin the process and are held 
prior to the unit returning home. At our family support 
briefings, we utilize professionals to talk about what to 
expect in terms of a behavior standpoint for everyone involved. 
They also provide benefit information to the families and 
points of contact.
    Our demobilization stations are conducted at the active 
duty military post upon the unit's return. Teams from the 
Department of Military and Veterans' Affairs, Veterans' 
Administration, and National Guard travel to the demobilization 
station for personalized briefings with the soldiers.
    Our welcome home briefs are conducted 30 to 90 days after 
the return of the unit's--to the unit's location. Follow-up 
information is presented to reiterate what was stated at the 
family support and demobilization station briefings. Close 
attention is also paid to specific readjustment issues within 
the unit.
    Mr. Chair, I noted in your opening statement that you had 
talked about the 90-day issue, and I will tell you that in 
South Dakota here, we feel 90 days is too long to bring a unit 
back. The camaraderie that they gain during their mobilization, 
the ability to talk to one another, the ability to identify 
issues from our standpoint is important far closer to 90 days, 
and we think the 90-day issue is too long, and I wanted to note 
that to you as well.
    We also give welcome home packets that are sent to the 
Division of Veterans Affairs to all returning veterans with 
printed information outlining State and Federal benefits.
    The information is also found on our Department home page.
    And finally, we have veteran's forums across South Dakota 
sponsored in communities throughout the State in partnership 
with our veterans service organizations. These forums provide 
benefit overviews and service information to all members in a 
public setting.
    Each of these venues is important in registering veterans 
for the VA and it's something that we also stress in each one 
of these settings.
    In each of the past four years, the Department has hosted a 
Veteran's Summit as well. Our Veteran's Summit brings together 
representatives from all major organizations in South Dakota to 
work with the military. Information is shared and ideas are 
exchanged. The Veteran's Summits address a wide range of issues 
along with fostering a spirit of cooperation and gives the 
Department ideas for initiatives to work into our strategic 
model.
    Last month our 2006 Veteran's Summit was held in Pierre. 
The theme dealt specifically with post-deployment mental health 
issues faced by our service members and their families.
    I'm glad to report that we have gained results by this. 
South Dakota's readjustment and transition effort focused on 
our new veterans has given us a large number applying for and 
gaining VA benefits. In fact, in a report from April 30, 2006, 
by the VA, South Dakota had a total of 2176 Global War on 
Terror veterans registered in the VA System. This total is more 
than any State in VISN 23 which includes South Dakota, North 
Dakota, Minnesota, Iowa, and Nebraska.
    The State of South Dakota has also been very helpful in 
legislation at the State level. Veterans Transition Partnership 
has involved elected leaders in the Executive and Legislative 
branch in South Dakota. Some recent initiatives include 
revising the definition of periods of service which qualify for 
veteran's benefits in South Dakota, reestablishing the South 
Dakota Veterans Benefit program to include our bonus program 
that gives $500 to veterans from South Dakota when they return 
home from their service, and offering free education benefits 
at South Dakota Regent Campuses and Technical Schools for 
spouses and children of members of the National Guard in South 
Dakota who have been killed or permanently disabled while 
serving on active duty. We've also passed legislation in South 
Dakota to prohibit picketing at military funerals.
    In closing, I would like to reemphasize that the success 
that we have had as advocates for veterans is the result of 
cooperation among leaders, organizations, and agencies and the 
sharing of ideas and resources. Since our troops have been 
deployed, South Dakota has stood as a true national leader in 
developing innovative ways to serve our returning service 
members and their families. The citizens of our State can be 
proud of this. Thank you.
    [The statement of Mr. Gerlach appears on p. 50.]

 STATEMENT OF KAREN MOORE, CORE COMPLIANCY MANAGER, TRANSITION 
ASSISTANCE PROGRAM, FAMILY SUPPORT CENTER, ELLSWORTH AIR FORCE 
                      BASE, RAPID CITY, SD

    Ms. Moore. Good morning, Chairman Boozman, Ranking Member 
Herseth. I am Karen Moore and I am in charge of the Transition 
Assistance Program here at Ellsworth, and I would like to make 
some comments about the chief--what he said and some other 
comments that were made.
    For our transition class, we try to include everybody. 
All--whether they've been in two years, 28 years, whatever it 
is, we would like to have them all in the same class. The 
reason why is we have learned through all of this process that 
you need to have that experience along with that other 
knowledge and the other knowledge that the younger people bring 
is Internet. They know how to access the computer.
    They know where to find all of the websites. So a lot of 
times it's very interesting to watch the class interact because 
the older ones are helping them find benefits, and the younger 
ones are helping the older ones find websites of where to find 
jobs, where to find information on relocation and things like 
that.
    Our class size normally runs between 12 to 47. We have had 
to go to four in a quarter because of the force shaping things 
going on, so we're having to do that, and we tried that for our 
last quarter and we were able to get the same amount as we had 
in one month in the previous year. But what I would like to say 
on that is we like to have smaller classes. I don't like to 
have 47 people crammed into a room. I have a huge classroom, 
but I still do not have enough room for interaction. TAP is so 
important, the information that has been talked about is very 
important and that we need more one-on-one, and that's why we 
like to have our classes smaller. The class that the Chief was 
in, it had 30-something in it, I guess. It was quite large.
    The other thing I'd like to comment on is about spouses. 
Here at Ellsworth we do invite spouses, but as the Chief was 
saying, it's very difficult with people working. You need two 
incomes to make it in this world nowadays. So one thing that we 
had looked at, and I have been traveling around doing some 
instructing and I was with my peers two weeks ago, and I asked 
them a question. If with TAP, would you want it to be 
mandatory? And I didn't get any comments, but I did get a side-
bar from an individual who came up to me, and she runs a 
program at another installation, and she told me no. And I was 
very surprised and I said, ``Well, why not?'' And she said the 
reason why is that she saw it as they may think that it's 
something that they have to do. It may have a stigma somehow 
get attached to it that it's another mandatory briefing that 
I've got to go to. I'm not going to get any benefit out of this 
program. Sometimes people walk into those classes with that.
    So with her comment, we spoke about it and I said, ``Well, 
what about if TAP was able to be taken at any point in time? 
Not just when you're separating, not when you're ready to go 
out the door, not when you're having to leave. Why couldn't it 
be used as a retention tool?'' At the Transition Assistance 
Conference last year, they said that 18 percent use it as a 
reenlistment tool. They came back in; they decided to stay. 
Well, I would really like to see that utilized for that more 
than just leaving when you're going out the door because so 
many other things are going on. I've been in charge of this 
program for two years now, and my gentlemen and my ladies are 
so overwhelmed when they walk out the door with all the 
information, and I would like for them to be able to take it 
when they have the opportunity to sit down and take things home 
and look at it a lot more in-depth.
    Spouses, I also think, need to have the opportunity to take 
the class, and I think you need to be able to take it and look 
at it more at home because a lot of our spouses have children. 
So what I would like to see for TAP is that it also be online. 
Not the class itself, but the manual so it--and the reason why 
I say that is we go out to the line when people are leaving. 
It's very interesting to talk to military members when they're 
getting ready to deploy for the fifth time, as the airman said, 
in a year. And you look at that and a lot of comments they make 
is that, ``Okay. My spouse told me this is my last one. I gotta 
get out.''
    ``Well, I understand that, but let me give you some 
educational things to think about while you're gone. You're 
going to have plenty of time to think. Let me give you the 
tools to look at and think about that while you're gone.'' So 
having access not only for the spouses to come whenever the 
class is going on, but also on the Internet, I think, would be 
a huge benefit for us.
    Also, the other thing I would like to add is that we have a 
decision time briefing in the Air Force, and that's where 
first-term airmen, second-term airmen get to make that decision 
of whether they should stay in or go. I would like to have TAP 
as maybe an offer for that to where they can go to the class, 
get more information on cost of living, see where they want to 
go, see what jobs are available, and then from that point, make 
that decision. But I know right now it's just a four-hour class 
basically and information is thrown at you, and this is such a 
huge decision, it's so much information and time and effort has 
gone into this, just not the three days or three and a half 
days along with DTAP that we've now been doing here at 
Ellsworth, you need to really be able to process that.
    So I would like to say DTAP is a program we started in 
March of last year. We have had excellent critiques on that 
program. We've had 157 come through it, which is very good. 
Here at Ellsworth, we offer it up to anyone who thinks they're 
going to file a claim. We're not looking at just you getting 
out for a medical reason. We want you to be able to file a 
claim. That has had great benefits here. So having DTAP added 
on to TAP has also helped us with that.
    So I'm very pleased to be working with the TAP program.
    I thank you very much for the opportunity to have some of 
my participants here this morning to be able to talk to you and 
for this opportunity also. Thank you.
    Mr. Boozman. Thank you.
    [The statement of Ms. Moore appears on p. 54.]
    Mr. Boozman. Thank you, Mr. Kolden.

STATEMENT OF TODD KOLDEN, VETERANS' SERVICES STATE COORDINATOR, 
SOUTH DAKOTA DEPARTMENT OF LABOR, ON BEHALF OF PAMELA ROBERTS, 
          SECRETARY, SOUTH DAKOTA DEPARTMENT OF LABOR

    Mr. Kolden. Chairman Boozman, Ranking Member Herseth, good 
morning. Probably it may feel like afternoon to you since it's 
still afternoon Eastern Time. My name is Todd Kolden. I'm the 
Veterans' Services State Coordinator for the South Dakota 
Department of Labor, and I also serve as an active member of 
the National Association of State Workforce Agencies (NASWA), 
Veterans Affairs Committee, and I am the State Employment Chair 
of both the VFW and the Disabled American Veterans of South 
Dakota.
    It is my honor today to appear before this Committee on 
behalf of South Dakota Secretary of Labor Pamela Roberts to 
present the views of the South Dakota Department of Labor 
regarding the Transition Assistance Program Workshop at 
Ellsworth Air Force Base and to discuss any questions or issues 
you may have. As we feel all benefits owed to veterans are 
important, my testimony this morning is going to focus 
primarily on TAP.
    In order for TAP to be successful, the partnerships between 
the Department of Defense, which in this case is Ellsworth Air 
Force Base, VA Vocational Rehabilitation and Employment, South 
Dakota Department of Military and Veterans Affairs, U.S. 
Department of Labor, Veterans Employment Training Service, and 
the South Dakota Department of Labor need to be solidly in 
place. I'm pleased to say that these partnerships are well-
established in South Dakota and have been instrumental in the 
success of TAP facilitated at Ellsworth Air Force Base. Without 
these solid partnerships, veterans attending TAP would not be 
receiving the full benefit of transition services they richly 
deserve. However, we do ask for your assistance to ensure these 
partnerships can continue to function successfully.
    In recent months the ``Key to Career Success'' campaign was 
launched by the Employment and Training Administration in 
partnership with DOL/VETS and the Department of Defense which 
assists active duty service members in transition and also 
helps returning Guard and Reserve members connect to employment 
and supportive services available through the Department of 
Labor. This campaign employs a wallet card that highlights a 
service member's special status upon arrival at the local 
employment office--in South Dakota we refer to that as South 
Dakota Career Centers--and contains important information about 
DOL services and electronic tools. This card is primarily 
handed out during our TAP Workshop, and we feel this has been a 
good asset to help get the word out on the employment services 
Department of Labor provides to veterans and assist in their 
transition.
    The importance of our DVOP Specialists and LVERs is not 
only serving veterans in the local office, but also conducting 
outreach. One of the best times for outreach is during the 
facilitation of TAP Workshops. In South Dakota our DVOP 
Specialists and LVERs facilitate approximately 80 percent of 
the TAP Workshop and 25 percent of the Disabled TAP Workshop, 
DTAP, which are conducted normally once a month. Often through 
a TAP Workshop, transitioning service members develop a one-on-
one working relationship with the DVOP or LVER which enhances a 
successful transition.
    As the Subcommittee is aware, there has been discussion at 
the national level to make TAP Workshops mandatory for Guard 
and Reserve components as well as for active duty service 
members before transitioning or retiring from military service. 
The South Dakota Department of Labor feels it should be 
mandatory for active duty personnel since many of these service 
members have been in the military for more than four years and 
most likely have been serving since a fairly young age. Many 
have probably never had a civilian job, and this possibility 
will be an abrupt change. For Guard and Reserve components, 
South Dakota Department of Labor feels it should be made 
mandatory coming from the command level. In other words, it 
should be mandatory for the Adjutant Generals of each State to 
inform their units about the TAP Workshops and allow them the 
opportunity to attend a TAP Workshop if they desire by sending 
them on a no-cost TDY (or TAD) orders. As you know, many of 
these individuals may have already jobs--may already have jobs 
they are returning to and may not have the desire or need to 
attend TAP, but again, it should at least be mandatory to have 
the opportunity.
    In South Dakota the Department of Labor made this request 
nearly three years ago to the Adjutant General and thanks to 
the partnership we have established, there is an unofficial 
agreement in place. Currently there are full-time Guard members 
attending TAP when they retire or separate. As you know, Mr. 
Ciccolella from DOL/VETS reports that about 60 percent of our 
service members are attending TAP at this time with the goal 
over the next couple years to reach 80 percent, and we feel 
that this initiative--we support this initiative and we feel 
that if TAP is made mandatory by these means that we could 
reach that 80 percent of service members attending TAP.
    Another example of the strong partnership is reflected by 
who facilitates a TAP Workshop. Being job-ready after attending 
TAP and leaving the service is very important, but it's not the 
only service that takes place. During our TAP Workshops we have 
the following services presented:
    Finances, labor market overview, personal appraisal, job 
search techniques, employment applications, resume cover 
letters which includes work groups, interview process which 
includes mock interviews and those are taught by the Department 
of Labor personnel, but there's also VA benefits presented. The 
County Veterans Service Officers are present, the Vet Center, 
and then also a one-day half--a one-half day Disabled TAP 
Workshop is facilitated for service members who have or may 
have a service-connected disability focusing on the benefits 
available to them which includes vocational rehabilitation and 
employment. So as you can see, TAP informs service members not 
only about how to get ready to make the transition and receive 
benefits, but also what they are entitled to and how to go 
about receiving these benefits. Again, we feel this instills 
the importance of the partnerships involved to successfully 
assist in the transition of our service members.
    Finally I want to share my personal experience with TAP. 
When I retired from the military service in 1997, I was given 
the opportunity to attend TAP. The information I learned and 
the resources I was provided helped me immensely and 
immediately and still assist me to this day. I feel the TAP 
Workshop is one of the best resources we currently have for our 
service members who are making the transition from military to 
civilian life, and for Guard and Reserve individuals who want 
to make a career change.
    Again I want to thank the Committee again for allowing me 
to testify. This concludes my testimony, and I'd be happy to 
discuss or respond to any questions.
    [The statement of Mr. Kolden appears on p. 57.]
    Mr. Boozman. Mr. Summerside.

 STATEMENT OF GEORGE W. SUMMERSIDE, VETERANS EDUCATION PROGRAM 
        SPECIALIST, SOUTH DAKOTA STATE APPROVING AGENCY

    Mr. Summerside. Chairman Boozman, Ranking Member Herseth, 
and Members of the Subcommittee on Economic Opportunity, I'm 
pleased to appear before you today on behalf of the South 
Dakota State Approving Agency to provide comments on the missed 
opportunity by many of those eligible for VA educational 
benefits as it relates to training on the job. Another issue of 
concern is the regionalization of claims processing, customer 
and education liaison service.
    Recommendation 1. VA educational benefits are not just for 
classrooms. Some individuals learn better from practical hands-
on training. The training on the job assists employers in 
hiring and retaining skilled workers which will provide our 
country with a highly educated and productive work force.
    From my experience and discussions with my colleagues 
nationally, it is our sense that VA educational training 
programs have not been utilized to their fullest potential. The 
two tables that were provided in my written testimony 
illustrate the lost opportunities from the first 60 years. 35.9 
million veterans were eligible for benefits during these 
service periods. 16.5 million veterans did not use any VA 
educational benefits at all. Over the last decade, State 
approving agencies across the nation have been actively 
promoting training on the job. Through these efforts, there has 
been a dramatic increase in the number of approved and active 
training establishments, but we need greater cooperation from 
our service partners. The DOD and the VA will need to do a 
better job of promoting and educating those who are eligible 
for VA educational benefits about this excellent training 
opportunity.
    The Department of Labor should make direct referrals to the 
respective State approving agency when placing those that are 
eligible for VA educational benefits and training programs. If 
the above recommendation was implemented, these individuals--
eligible individuals for VA educational benefits would be 
afforded opportunities that have not been seen in previous 
service periods.
    Recommendation 2. Over the past decade the VA has moved 
towards a regional approach to serving those eligible for 
benefits and their service partners. In theory it would seem 
like this approach would make better use of limited resources, 
and if properly managed, would provide outstanding results. The 
system has not delivered as intended and those eligible 
individuals are suffering. The VA has looked towards technology 
to solve all issues and in reality, their business plan should 
include additional staff with a greater emphasis on training.
    First there should be a comprehensive review of the claims 
processing system to identify problems and then provide the 
necessary resources to resolve these problems.
    Second, the toll free number and online inquiries is just 
not working. There are dropped calls, erroneous information 
provided, delays in responding to online inquiries. Good 
customer service is an absolute necessity for any benefit 
system to be successful.
    Third, in the past each State has had a local VA contact or 
Education Liaison Representative. Upon the retirement of our 
representative in 1999, this position was transferred to 
Kansas, and over the past seven years, we've had five different 
representatives. This has created challenges for our State 
since direct access is an important aspect of this 
relationship. Another concern would be, has the VA planned for 
the future? Will there be trained professionals to fill future 
vacancies. Our current liaison, Mr. John Streedbeck, is a 
valuable asset and partner whose professionalism is greatly 
appreciated and needed.
    I would be remiss if I did not acknowledge and extend a 
special thanks to Carl Thunnel, Randy Johnson, and Barry 
Walser, all of the St. Louis Regional Processing Center.
    These individuals have provided this State with outstanding 
service with the limited resources available. Simply put, the 
current system needs additional resources to ensure those 
eligible for VA educational benefits are provided quality and 
timely customer service.
    In closing, Mr. Chairman, Ranking Member Herseth, and 
Members of the Subcommittee on Economic Opportunity, I would 
like to thank you again for the opportunity to comment on these 
issues related to training on the job and the regionalization 
of VA educational services. I would be happy to respond to any 
questions.
    [The statement of Mr. Summerside appears on p. 59.]
    Mr. Boozman. Thank you. Ms. Herseth.
    Ms. Herseth. Well, I'll start with a few and then come back 
because there's a lot to get at here, and I appreciate the 
testimony that each of you have provided. Let me ask you, 
first, Mr. Gerlach, and as you described the Readjustment Task 
Force that was put together, I know that includes the State 
Council of Mental Centers.
    Mr. Gerlach. Correct.
    Ms. Herseth. And in your opinion, assuming in a perfect 
world the resources were there, that resources weren't 
questioned, do you think that follow-up mental health 
assessments and counseling should be required after 
demobilization?
    Mr. Gerlach. I don't think that they should be required 
simply because if the individual wants to stay in the military, 
there's some issues with counseling that could affect their 
military service. However, I would suggest that individuals who 
want that should be granted the anonymity needed to gain that 
help, yet stay in the service, and I think that's an important 
point.
    Ms. Herseth. I think it is, too, but I'm curious as to, I 
mean, if it were required for everybody, if it was just part 
of----
    Mr. Gerlach. The general process?
    Ms. Herseth [continuing]. The process, then wouldn't you be 
able to minimize the issues associated with those wanting to 
stay? I mean, if everyone goes through it and you kind of deal 
with the issue of anonymity in terms of the privacy of what's 
discussed, but if it's part of the demobilization process or 
whether it's 30 days, 60 days after, as you try to identify 
some of the problems when they come back, again, assuming that 
resources weren't an issue, would that be--you'd still suggest 
that it should just simply be made available to those who 
choose it?
    Mr. Gerlach. No, I think you bring up a good anecdote in 
that if it were a systemic process coming off of 
demobilization, and it is in the way that at the demobilization 
station you're asked to fill out a questionnaire and it asks 
you some questions about how you're feeling and then some 
general type things. They do that at the demobilization 
station. Is it the most effective way to identify issues? I 
would submit probably not, and I think where you're going with 
a systemic program coming off of demob. does have some merit.
    Ms. Herseth. Now I know that, Ms. Moore, you addressed the 
issue of TAP among your counterparts in other programs that to 
a certain percentage, it could effectively be used as a 
retention tool, and even a couple of the individuals on the--
well, one in particular on the first panel chose after, 
receiving the information, but for whatever reason, to stay, so 
do you think that the demobilization process that we've put 
together here, Mr. Gerlach, has also been beneficial as a 
retention tool for the National Guard?
    Mr. Gerlach. Absolutely, and I'll tell you why. I think 
that the sharing of information that goes on in our 
demobilization process enables individuals to transition 
effectively and easily. In addition, it gives them the 
opportunity to meet with individuals such as county veteran 
service officers. In South Dakota where we have a rural State 
and individuals go home from Rapid City where they demobilized 
out of and go to Mobridge or Faith or Chamberlain, out in the 
rural areas, it gives them the point of contact not only at 
their local level, but at the State level in the National 
Guard, too. So I would submit that that whole transition 
process and having the right people there has allowed us to 
retain service members.
    Ms. Herseth. I appreciate that. Now I have a follow-up 
question for you turning to education benefits separate from 
the demobilization process and the different information that's 
provided there. As a major in the South Dakota National Guard, 
what do you think our--what is the primary factor, in your 
opinion, in the men and women that you've worked with over the 
past number of years for them to reenlist with the National 
Guard?
    Mr. Gerlach. I think with reenlistment, their main factor 
is the bonuses that go with the reenlistment. I would also 
state, you mentioned the education. I think education a lot of 
times gets individuals in the National Guard, Reserve and 
active duty in the door.
    I would submit that a good thing that you would look at the 
Federal level and the State level is a continuing education 
program. I think that once you get to a certain level in the 
military, whether it be an NCO or an officer and you're serving 
in the National Guard or Reserve, you have become a 
professional soldier. Even if you're not on active duty, you're 
still a professional soldier. I think increased emphasis on 
professional degrees, graduate level degrees for senior NCOs 
and officers is a program that I think could continue to help 
soldiers and in terms of reenlistment because reenlistment may 
give them some future incentives.
    Ms. Herseth. I think that's a very good point to make and I 
appreciate you stating it in terms of what we've done here and 
the bonuses as well and perhaps also just the sense of duty and 
camaraderie, but let me ask you this question because this came 
up down in Arkansas and it's come up in our Committee hearings 
in D.C. As we look to modernize the GI Bill, as we know, active 
duty upon separation still utilize the education benefits that 
they accrue. National Guard and Reservists, they can only take 
advantage of them to the extent they continue----
    Mr. Gerlach. Correct.
    Ms. Herseth [continuing]. In the Guard. Do you have a 
serious concern that if we were to modernize the GI Bill in a 
way that allowed for some utilization, even though if the 
individual service member chose to leave the Guard, that 
perhaps the education benefit would decrease, they wouldn't be 
entitled to the full magnitude of the benefit, but still had 
some access to the benefit, do you have serious concern that 
that would cause problems with retention?
    Mr. Gerlach. I think it's something that needs to be 
addressed, and Mr. Summerside and I have in-depth conversations 
at times about this. I think as you apply to the National Guard 
and Reserve, seeing the National Guard and Reserve mission the 
way it is right now in the operations standpoint, I think that 
they should be given more latitude to access the GI Bill than 
what they have right now. It could help retention and 
recruiting, but I think from a fairness standpoint, I think it 
needs to be addressed. And Mr. Summerside could maybe comment 
additionally when you get to him, but it's a very good 
question.
    Ms. Herseth. Well, let me go to Mr. Summerside on 
particularly the Chapter 1607, the new benefit. Have you seen 
an effective utilization of that benefit so far? And I know 
it's relatively new, but based just on what you're seeing from 
South Dakota National Guard members, their familiarity with the 
benefit, their utilization of the benefit, could you comment 
how you think it's working thus far in South Dakota?
    Mr. Summerside. Representative Herseth, basically what I've 
seen so far, we got ahead of the game right shortly after the 
legislation and I think it was in December of 2004. We put it 
in all our brochures, we had public meetings, we worked and 
trained with our county and tribal service offices. We tried to 
get the message out, and part of it is we have a real strong 
base in on-the-job and apprenticeship training. What we tried 
to do is when these individuals left whatever job that was, we 
tried to diary that when they got back to make sure they knew 
about the Chapter 1607, and many of them, in our State anyway, 
we help them or assist them in actually applying for the 
Chapter 1607.
    I think--are we getting them all? No, but with the 
cooperation that we've had with the county and tribal service 
offices, also with the National Guard, I work with their 
Education Office to try to identify people. I think we're doing 
a fairly good job. I think there are a fair number of 
individuals that have received benefits. I think there's a 
fairly good percentage. I don't have the exact data that have 
actually applied, and many of these I worked on. I assisted a 
Guardsman last Friday and we finished his. He's going back to 
2003 when he came back from active duty and we're picking up 
for a year that he would get the greater benefit. Actually he 
had exhausted his Chapter 1606 and he was applying for the 
greater benefit.
    I work with people on a daily basis on the Chapter 1607. I 
think DOD--I understood that they were to provide a letter to 
all of these individuals. I don't know if that ever got to 
those individuals. The people that I have worked with did not 
receive that correspondence, so I believe in South Dakota we 
have got the message out fairly well. We still have more work 
to do, and we continue to do that. We have an annual workshop 
here in a month and a half where we'll address it again at the 
County and Tribal Service Officers Association. We have many 
conferences twice a year and we address it at both of those. 
And I think overall in South Dakota, we're in fairly good 
shape.
    They're behind a little in the processing in St. Louis, and 
it's a very difficult program and process because some of these 
claims are going back four years. They need to pay the greater 
benefit. They need to weigh out kickers. There are a lot of 
variables in there and there are a lot of challenges.
    Ms. Herseth. You're right, and the Chairman and I have 
tried to, in our oversight as we look to some being behind the 
ball in processing those claims for 1607 benefits, we've been 
asking on a fairly frequent basis where they are. I think 
they're doing a little bit better now that there's an 
electronic payment system in place in terms of that transfer of 
the benefit. But I certainly appreciate what you're saying in 
terms of some of the complexity of the benefit, and I do think 
it's worth our follow-up to determine whether or not the 
Department of Defense has communicated effectively with those 
members entitled to Chapter 1607.
    Before I turn it back, I'll ask just one last question for 
Mr. Kolden, and how do you feel that the local work force 
markets across South Dakota have responded to service members 
that have separated, active service members that have 
separated, and National Guard and Reservists that are coming 
back for employment or reemployment?
    Mr. Kolden. Are you asking specifically about USERRA or are 
you asking do we have employers that are hiring veterans?
    Ms. Herseth. Just do you feel that employers in the various 
work force markets across South Dakota have been effectively 
integrated into the coordination and communication certainly 
working with our career centers and others to--I was pleased to 
hear of the card that is given at the TAP programs. That's 
beneficial, but do you think that the response has been one 
where employers are aware of and want more information in 
trying to identify those who are separating from service and 
may be seeking employment here in the Rapid City area or 
Aberdeen or elsewhere?
    Mr. Kolden. I believe they have. As the Department of Labor 
we market--we go on a marketing stream probably about every 
three months where we really reach out to the employers and 
say--or ask them to hire veterans and why they should. We don't 
just say, ``Hire a veteran.'' We tell them why they should hire 
a veteran.
    The ESGR in South Dakota is very strong. In fact, Lt. Col. 
Michels, who's out in the crowd and he's from Camp Rapid and 
the ESGR Chairman of the state, I believe is his title, and 
ESGR is very strong. ESGR works very closely with my Federal 
counterpart Earl Schultz who has USERRA. He deals with it 
professionally.
    You know, with the veterans service organizations, we 
recognize employers who hire veterans, and just recently we 
recognized an employer right here from Ellsworth Air Force 
Base, AKL Security. 60 percent of their employees are veterans. 
You know, that's unheard of basically across the country to 
have 60 percent of your employees veterans.
    And when I accepted a lot of nominations for employers for 
hiring veterans this year, it was a tough pick because we had a 
lot of employers who had a lot of veterans working for them and 
that tells me--you know, I look at it statistically. About 10 
percent of our population is veterans. You would expect that a 
business is going to have 10 percent veterans in their work 
force. A lot of businesses I looked at have 25 and 30 percent 
of their employees are veterans. So that tells me that they are 
hiring veterans, that they're accepting them. When they return, 
I can't officially comment on USERRA issues. That would be Mr. 
McNulty or Earl Schultz to comment on USERRA cases we've had 
across the state, but it's been pretty mild. I think we have a 
lot of cooperation.
    Again, the ESGR has done a great job of educating 
employers, and I think that was the key was educating the 
employers on what a service member's rights are when they 
deploy and when they come back and what their obligation is.
    Ms. Herseth. Thank you.
    Mr. Boozman. Mr. Gerlach, following up on Ms. Herseth's 
question about the educational benefits, recently in the 2004 
study--Reserve Personnel Study, it said that 14 percent of the 
people, when asked, said that with reenlistment, they 
considered the educational opportunity. Would it be a factor as 
far as reenlistment if we offered the benefit after they left 
the service?
    Mr. Gerlach. Absolutely, and in this day and age, I think 
that it's more appropriate than ever. With the Guard and 
Reserve members that have been mobilized and have served, I 
think a unique benefit for them to leave after--even if they do 
leave their service, it's more than appropriate in the times 
that we live.
    Mr. Boozman. All right. So it's appropriate to do it. Do 
you feel like it would adversely affect reenlistment?
    Mr. Gerlach. I don't think so in South Dakota. You know, I 
throw out the fact that education is important, but I will tell 
you that I think that camaraderie and being part of the 
National Guard in South Dakota trumps that. I think individuals 
that serve in the units, and I think it's that way on active 
duty in many places, too, the main reason they serve in the 
Guard is you get to serve your state, you get to perform State 
missions, you get a cadre of individuals that you get to see on 
a drill weekend and that you enjoy serving with, you get 
leadership training and when you package that all together, I 
think that's probably the most important thing that people get 
out of serving in the Guard.
    So I don't think that additional benefits will bring about 
a windfall of people going out the door. I think that those 
things are the core reasons people serve.
    Mr. Boozman. That's interesting. That's the exact answer 
that we hear over and over again as we pose that question. I 
guess, as you alluded to earlier, we do have a fairness 
question since we've got people that serve a couple tours, and 
then transition out and really have no benefit at all which 
doesn't seem fair, when you compare it to the guys, that are in 
the Reserve doing the same job.
    Mr. Gerlach. Yes.
    Mr. Boozman. You mentioned about in the TAP programs that 
45, I think, or 47 was too large. What's a good number?
    Ms. Moore. The size that we like is about 20 to 24.
    The reason why with us, we do these resume work groups. We 
need to have them small so it's more hands-on. I also bring out 
employers, HR professionals. Well, to be able to effectively 
give them a 10- to 15-minute interview, I need smaller groups 
because I really believe that, as I said, I always make them 
laugh and I ask them, ``Did you leave today with a headache?'' 
because we purposely have so much information in these classes 
that having smaller classes allows us to really deal one-on-
one. These people are coming from all different walks of life, 
all different times of service, retiring, separating, medical, 
spouses, children.
    So we really do need to be able to spend more hands-on time 
with them, and that's why we here at Ellsworth like to have 
smaller classes.
    Mr. Boozman. You're to be complimented in the sense that it 
seems like your pupils, speak very highly of the program.
    Ms. Moore. Thank you.
    Mr. Boozman. Is there an opportunity to brainstorm to 
figure out how we can get more spouses involved in the sense of 
maybe thinking outside the box as far as when it's offered, 
maybe quarterly; that one of them is done on a weekend or an 
evening or--see what I'm saying?
    Ms. Moore. This has always been an issue. It was ironic 
that the Chief brought up Heart Link. That's also my program; I 
also run that. We had that started as a daytime program. I 
could never get over more than 11 people. If we have it in the 
evening and have child care, we have normally 19 or more. So it 
does help to have it in the evening, but I think also there--
you were talking about stigmas. The spouses do have a stigma 
with coming to some of the classes. They think it's only for 
the military members, and this has been instilled in them for 
years, and that's one of the stigmas we have always had to 
fight at Family Support with our programs is that a lot of 
times, spouses just don't know about it or they say, ``Oh, you 
don't need to go to that,'' and that is something that we have 
been tackling for years. I wish I had a good answer, but we 
have been fighting this ever since Family Support has been 
here.
    Mr. Boozman. Mr. Kolden, you mentioned recognizing the 
employers; they're doing a good job and that's good. Are we 
doing a good enough job of recognizing employers? Is there any 
way we can help you with that? I think people like to be 
thanked and, we like to reward good behavior. Are there enough 
programs in place for doing that or do we need to do a better 
job of trying to think up something?
    Mr. Kolden. Sir, could I comment on your question to Ms. 
Moore first?
    Mr. Boozman. You can comment on anything you want.
    Mr. Kolden. I was just going to--as you know, DOL/VETS 
funds TAP separately; it's a separate funding stream from what 
we'd normally get for the DVOPs and the LVERs.
    What we did in South Dakota is that we recognized that the 
classes were getting larger. Karen--you know, we have a 
quarterly TAP meeting. You'll hear from me that I think 
communication and cooperation and partnership is probably the 
most important of all this that happens for transitioning 
service members is that I can't do it alone, DOL can't do it 
alone, DOD can't do it alone, Military and Veteran Affairs 
can't do it alone. We have to all do this together in 
partnership to give the best service we can.
    But what we did after Karen communicated about the draw-
downs that were coming is that we went ahead and funded instead 
of--normally we could fund one TAP session or one TAP workshop 
per month. We went ahead and got the funding for two a 
quarter--or four a quarter instead of three a quarter. We had 
added an extra one in there in case we had additional 
individuals, and if we didn't have additional individuals to 
attend TAP, that money we could just give back to DOL. It's not 
money wasted; we just give it back.
    I know we've had a double workshop, so far just one, where 
we would have 60 members in one TAP Workshop, and we feel 
that's too many. That's too big a class. As we all know, a 
classroom should be 25 to 30, somewhere in there. I think the 
new national MOU for TAP between DOD, VA, and DOL has indicated 
35 at the maximum, and that's what NASWA recommended to DOL is 
don't go over 35. I haven't seen that. It's being signed right 
now by all the interested parties so I'm not sure that that's 
what it says, but we were told it would say 35 would be 
recommended.
    Right now it seems like, to your question to me directly, 
the veterans service organizations are doing, in my opinion, a 
very good job of recognizing employers. Does DOL recognize 
employers like that? Not in that sense they don't. In our South 
Dakota Career Centers, we have employment representatives who 
go out and talk to employers, and when they go out and talk to 
employers, they're--you know, we're telling them what our 
services are, and when we go out and talk to employers and tell 
them about our services, one of the services that we describe 
is our veteran services, what we do for veterans.
    We promote the hiring of veterans, but again, do we 
recognize them like the veterans service organizations do? I 
would say probably not. The ESGR does a good job of recognizing 
employers, but other than that, I don't think DOL does probably 
quite enough to recognize them, in my personal belief.
    One thing I would say is that being I'm the employment 
chairman for two of the veterans service organizations that we 
recognize employers. Pam Roberts comes to our conventions, 
State conventions, and she's recognized the employers as well. 
So as the South Dakota Department of Labor Secretary of Labor, 
she has recognized them as well and saying thank you. So that 
helps, but we could probably do more.
    Mr. Boozman. Ms. Herseth, do you----
    Ms. Herseth. No.
    Mr. Boozman. Thank you.
    Mr. Gerlach. I have one follow-up, Mr. Chairman.
    Mr. Boozman. Very well.
    Mr. Gerlach. Earlier I wanted to make a comment and Mr. 
Kolden articulated really well and I think you asked a really 
good question. I think that the unsung heroes in this whole 
mobilization and deployment process have been the employers. 
We've always looked the last 20, 25 years and asked ourselves 
at the Federal level and State level, if we call up a lot of 
Guard and Reserve people, what's going to happen? Are they 
going to get their jobs back? When you pass good legislation at 
the Federal level, and you have, but I will tell you in South 
Dakota, you probably didn't need that legislation. We've had 
individuals all the way from three-person welding shops in 
Estelline to major banks in Sioux Falls who have made up the 
difference in benefits and pay to mobilize an individual, 
helped family members while they were gone. So I think your 
question about are we doing enough for our employers is a good 
one because I will submit that they are doing a lot.
    Mr. Boozman. Thank you very much. Well, thank you, 
panelists, so much for sharing your thoughts and we just 
greatly appreciate it. Thank you.
    Mr. Kolden. Thank you.
    Mr. Boozman. For our final panel of the day, we have Mr. 
Dave McNulty, Director For Veterans Employment and Training for 
Wyoming at the Department of Labor; Mr. John Brown, District 
Director, Sioux Falls, South Dakota, for the U.S. Small 
Business Administration; Mr. William Fillman, Director for the 
Central Area for the Veterans Benefits Administration; and Mr. 
Fillman is accompanied by Mr. John Smith who is the Director 
for the Dakotas Regional Office of the Veterans Benefits 
Administration. Let's start with Mr. McNulty.

 STATEMENT OF DAVID McNULTY, DIRECTOR FOR VETERANS EMPLOYMENT 
 AND TRAINING FOR WYOMING, U.S. DEPARTMENT OF LABOR, ON BEHALF 
 OF EARL R. SCHULTZE, STATE DIRECTOR--SOUTH DAKOTA, VETERANS' 
   EMPLOYMENT AND TRAINING SERVICE, U.S. DEPARTMENT OF LABOR

    Mr. McNulty. Chairman Boozman, Ranking Member Herseth, and 
the Committee members, Earl Schultz regrets that he could not 
be here. It was impossible for him to and he appreciates the 
fact that you would allow me to represent him. We come from 
similar states that have similar problems and we deal 
oftentimes with them in the same way.
    You've got his written testimony and I won't--I'll go over 
briefly what we're responsible for. I won't, although I could 
answer questions on his testimony, if you have it. I know he 
covered what's been done out here at the Base.
    Wyoming has a similar Base in Cheyenne, Wyoming, Warren Air 
Force Base, so both of us deal pretty much with the same 
things.
    Basically the Department of Labor is responsible to ensure 
that we've got TAP manuals, we've got people that are trained 
to provide TAP. We do that through NVTI in Denver, Colorado, 
and to ensure--it's been mentioned by several speakers here 
today that we work together. None of us can do it alone. It 
takes the Department of Defense, it takes the National Guard, 
it takes the Base TAP Facilities Coordinator, it takes a lot of 
people in the private sector to come in and to provide these 
TAP programs. And basically we're responsible to make sure that 
they--they're put together and that they run. I know Mr. 
Schultz is really appreciative of what this Committee does not 
only because you do things help veterans, but you're concerned 
enough that as to how we're spending our money and what we're 
doing in providing the services that they need.
    I'd like to touch on a couple things that were covered that 
I think are important. I think a lot of people could benefit 
from TAP, especially spouses. When you look at active duty 
military, lots of them may consider getting out because every 
two or three years, they're transferred somewhere else, and 
their spouse is put into a position that they have to look for 
work every two or three years. The service member knows they 
have a job to go to. They don't have to worry about it. I think 
it's really important to do what we can to encourage spouses to 
go.
    Someone mentioned earlier that it would be good to allow 
people that their spouse may be just in for the first time to 
allow them to go because if they have to look for work over and 
over again, I think it's extremely important to give them the 
tools they need.
    The other lapse that I think every state's trying to deal 
with is in the National Guard and the Reserve units. We've got 
people in Wyoming National Guard, and I'm sure South Dakota 
does, that are from 34 different states. It's not even just 
within the State of Wyoming. We've got pilots from Hawaii in 
the Wyoming National Guard. When those people are deployed, 
their spouses are located out in areas where it's extremely 
difficult to get to them. Also when they come back and once 
they disperse, it's extremely difficult to get to them.
    So I think there are ways that we can deal with some of 
those programs. We've--there's some TAP manuals that are 
actually on disk that they can take with them. We can send 
those. NVTI's got a job search program put together that you 
can take as an individual and sit through tapes. It's not as 
effective, I don't think, as having TAP trainers teaching the 
class, but it's better than not giving them anything at all. 
And I know in South Dakota, many, many local offices could 
provide that type of course to the individual spouses or 
individual Guard and Reserve members or to individual military 
that may not have had the opportunity to take it before they go 
out. And so I think there's some opportunities there that we 
could look at.
    I think the funding for TAP, as Todd said, is we built in 
extra sessions to provide TAP specifically for Guard and 
Reserve units. We've done it on weekends. I think the bigger 
issue is when we've got spouses that are only going to be 
available nights and stuff and they're scattered all over, that 
there are ways, I think, that we can--we can deal with some of 
those to offer some opportunity.
    I think generally in this part of the country that we get a 
tremendous amount of employer support for TAP, and employers 
are looking for individuals that are drug-free, good work 
ethic, everything a military member brings to the employment 
arena, and they're not hard to place if we give them the tools 
on how to look and where to look and who to go to for help.
    So I won't really deal much more with Earl's testimony. If 
you've got specific questions on that, I'd be glad to ask--
answer them. I think Wyoming deals with the same kind of state. 
Low population spread out all over in small towns across huge 
areas of land, and that overall, I believe in our area in 
general that TAP provides an excellent service to members that 
are either returning from and staying in the Guard and Reserve 
or going--Wyoming does the same thing that they do here. We 
allow any of them to come to Cheyenne. The problem is 
oftentimes driving 200 to 500 miles to go to TAP may not be 
real effective.
    Thank you for the opportunity to testify, and I know Mr. 
Schultz was extremely sorry he couldn't be here and he does 
appreciate what all of you do for veterans. Thank you.
    Mr. Boozman. Thank you.
    [The statement of Mr. Schultz appears on p. 64.]

  STATEMENT OF JOHN L. BROWN, SOUTH DAKOTA DISTRICT DIRECTOR, 
               U.S. SMALL BUSINESS ADMINISTRATION

    Mr. Brown. Chairman Boozman, Ranking Member Herseth, thank 
you for requesting our views on the important subjects of 
today's hearing. My name is John Brown and I'm the District 
Director of SBA's South Dakota District Office.
    I've been here about ten months and I'm very pleased to be 
here today. Administrator Barreto has asked me to testify about 
the SBA's efforts to provide small business transition 
assistance to American military men and women.
    For the record, I would like to recognize that accompanying 
me today is Elton ``Mick'' Ringsak, SBA Regional Administrator 
for Region VIII.
    SBA maintains 68 district offices and 10 regional offices. 
All SBA programs and services including counseling and training 
are available to active duty personnel, Reservists, veterans 
and their families as they are to all citizens. To ensure easy 
access to our programs for veterans, SBA has a designated 
Veteran's Business Development Officer in each office who acts 
as the initial point of contact for veterans seeking to use our 
programs. That person can also assist veterans in locating 
information on other programs that may be available through 
other resources and agencies.
    SBA is an active participant with other Federal agency 
resource partners including the Departments of Defense, Labor, 
and Veterans Affairs in the delivery of transition assistance 
for active duty and Reserve component members.
    SBA is a regular contributor to the Transition Assistance 
Program and the Disabled Transition Assistance Program for soon 
to be discharged military personnel and their families, and for 
demobilizing Reservists.
    SBA has been an active participant in the TAP and DTAP 
programs for many years nationwide and in the State of South 
Dakota. At SBA we know the potential that veterans have to 
become entrepreneurs and we've always sought participation in 
the TAP programs.
    SBA offers counseling and loans to veterans, service 
disabled veterans, reservists, active duty military and their 
families. At SBA veterans, service disabled veterans, 
reservists, active duty military and their families all come 
under the heading of ``Veterans Services.''
    SBA provides targeted services intended to meet the unique 
interests of veterans as well as providing them with the 
overall business assistance programs available to other small 
business persons and owners.
    SBA provides those services through a network of 68 
district offices, 900-plus Small Business Development Centers, 
387 SCORE Centers with over 10,000 SCORE volunteers, 90-plus 
Women's Business Centers, five Veterans Business Outreach 
Centers, 16 Export Assistance Centers, and approximately 1700 
lenders participating in the SBA's Express Program alone. And 
I'm proud to say that we're tracking ahead on loans in this 
State to veterans, so I'll just toss that in.
    SBA provides government contracting information and 
assistance to veterans and others through 67 Procurement Center 
Representatives and Commercial Marketing Representatives across 
the nation as well.
    In addition to face-to-face services, SBA offers on-line 
training and counseling opportunities largely through our SCORE 
members.
    SBA offers a variety of loan programs for veterans.
    These include Military Reservists, Economic Injury Disaster 
Loans, the MREIDL Program, and 7(a), largely the SBA Express 
Program, which makes a special effort to meet the needs of 
veteran borrowers as well as our Community Express Loan 
Program.
    SBA recognizes that lending to veterans is a very important 
component of what we should be doing. As such, lending to 
veterans has been identified as one of the public policy goals 
of the 504 Loan Program. This designation allows us to increase 
the eligible size of a loan when it's identified as a loan to a 
veteran.
    SBA actively pursues opportunities to educate veterans 
about resources provided by the Agency. It's critical to inform 
existing and potential military veteran entrepreneurs about 
opportunities afforded to them. As entrepreneurs, they must 
make their own decisions on what resources and services fit 
their needs, but it's our obligation to get the message out, 
and that's frankly one of our largest challenges.
    SBA works with other agencies including the Departments 
Defense, Labor, VA and others to inform veterans and those 
recently called up about SBA's offerings.
    The SBA website has a special link to the Office of 
Veterans Business Development that provides a guide to the full 
range of services available that can be accessed from anywhere 
in the world.
    Hundreds of thousands of print, CD and electronic copies of 
specific program materials, resource guides and fact sheets are 
distributed to veterans annually. There's an ongoing long-term 
outreach program that includes reaching veterans when they're 
participating in special seminars, conferences, training 
programs, ``webinars'' and other opportunities as they arise. 
This includes TAP seminars where SBA has been asked to 
participate.
    The Office of Veterans Business Development produces a 
quarterly newsletter which is circulated throughout the agency 
and is distributed to veterans, veteran organizations, veteran 
business owners, and other Federal and State agencies such as 
the ones today. This newsletter is distributed to more than 
44,000 readers.
    These services are all provided through SBA programs and 
partners, Federal, state, and local governments, veteran 
service organizations and entrepreneurial organizations.
    SBA's Office of Advocacy undertakes a number of research 
projects, studies, and other efforts to identify critical 
issues for veterans. Some of these issues include procurement, 
propensity for entrepreneurship, and veteran business 
databases. Advocacy works with SBA's Office of Veteran Business 
Development, the U.S. Census Bureau, the Department of Defense 
Research Initiatives and veterans service groups to identify 
needs for ongoing research. This is a relatively new pursuit 
instituted by the Bush Administration during the past six 
years.
    The South Dakota District Office provided TAP and business 
workshops at Ellsworth Air Force Base in conjunction with the 
TAP Program here. Our office continues to supply materials and 
resources to the vet centers located throughout the State as 
well as access to our programs and resource partners. The 
district also provides procurement training and contract 
opportunities through the delivery of procurement fairs in 
Rapid City and Sioux Falls aimed at assisting SBA clients and 
Veteran Owned Businesses. In fact, a NIST/SBA computer security 
workshop is scheduled, I believe, for June 30 at this facility.
    In conclusion, SBA has reached hundreds of thousands of 
veterans nationwide with materials about the educational and 
lending programs offered through the agency. There were over 
6,000,000 visits in fiscal year 2005 on the Office of Veterans 
Business Development web pages compared to some 280,000 such 
hits in FY 2000. Providing services to veterans will continue 
to be of great importance to the SBA in the future.
    This concludes my testimony, and again, thank you for 
inviting us to be here and present on this matter. I'd be happy 
to answer your questions.
    [The statement of Mr. Brown appears on p. 70.]
    Mr. Boozman. Mr. Fillman.

STATEMENT OF WILLIAM FILLMAN, DIRECTOR, CENTRAL AREA, VETERANS 
  BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Fillman. Chairman Boozman, Ranking Member Herseth, 
Members of the Committee, it's good to see you again. I'm 
William Fillman, Director of the Central Area Veterans Benefits 
Administration, Department of Veterans Affairs. I appreciate 
the opportunity to appear before you today to discuss the role 
of the Veterans Benefits Administration in providing 
transitional assistance to members of the National Guard and 
Reserves in the State of South Dakota. Today I'm accompanied by 
Mr. John Smith of Sioux Falls, Director of the Regional Office 
for the Dakotas. My testimony will address the current outreach 
efforts in the Sioux Falls Regional Office and the transition 
assistance provided our servicemen and women in South Dakota.
    The Sioux Falls Regional Office provides a variety of 
veterans benefits and services including disability 
compensation, pension, and vocational rehabilitation and 
employment services. The office is actively involved in the 
outreach services and benefits counseling throughout the state. 
The Department of Veterans Affairs has a long history of 
special efforts to bring information on VA benefits and 
services to active duty military personnel. Returning service 
members including members of the National Guard and Reserves 
may elect to attend the formal three-day workshop provided 
through the Transition Assistance Program, a joint effort of 
the VA, the Department of Defense, and Department of Labor.
    At TAP workshops service members are provided information 
describing the VA benefits available and are encouraged to 
apply for all benefits to which they are entitled. 
Additionally, service members receive employment assistance to 
include resume-writing, skills marketing, job referral, and 
other transitional services.
    The Sioux Falls Regional Office actively supports the 
commitment to provide a seamless transition to returning 
military members. In fiscal year 2005, the office conducted 12 
Transition Assistance Program briefings here at Ellsworth Air 
Force Base for 483 participants. To date in fiscal year 2006, 
the office has conducted nine briefings for 203 participants.
    The Sioux Falls Regional Office is working diligently to 
ensure members of the Guard and Reserve understand the VA 
benefits to which they may be entitled. So far in 2006, 60 
South Dakota National Guard recruiters and 74 members of the 
Navy Reserve received training on VA benefits.
    Employees from the Regional Office also participated in the 
Veterans Benefits Forum hosted in Aberdeen in July of 2005. The 
office staffed an informational booth and answered questioned 
concerning VA benefits. Also in July of 2005, the office 
participated in the South Dakota Veterans Summit by providing 
an overview of VA benefits. Members of the National Guard and 
Reserves, County Veterans Service Officers, Veterans Service 
Officers, and Congressional staff members were in attendance at 
that meeting. The Regional Office is working diligently to 
ensure South Dakota National Guard Members' transitions are as 
seamless as possible and are doing whatever they can to ensure 
members and their families are aware and know how to access VA 
medical care and benefits.
    VBA has also assisted in training 54 newly hired Department 
of Defense State Benefit Advisors. These individuals work for 
the State Adjutant General's Office and serve a coordinating 
function between demobilizing National Guard and Reserve units 
and local VA facilities. There's a State Benefit Advisor 
located in each State including one in South Dakota.
    Mr. Chairman, we at the VA are proud of our continuing role 
in serving this nation's veterans. We continually evaluate and 
seek opportunities to improve the quality and scope of our 
outreach efforts to members of the military. I hope that my 
testimony today has provided you and the Subcommittee with a 
better understanding of the Transition Assistance Program 
extended by the Sioux Falls Regional Office to the veterans of 
South Dakota. Thank you for the opportunity to appear before 
you today.
    This concludes my testimony, and John and I would be 
pleased to answer any questions from Members of the 
Subcommittee.
    [The statement of Mr. Fillman appears on p. 74.]
    Mr. Boozman. Thank you. Ms. Herseth.
    Ms. Herseth. Thank you, Mr. Chairman. Thank you all for 
being here and for your testimony. We appreciate the work that 
you do. And thank you, Mr. McNulty, for filling in for Mr. 
Schultz. We'll look forward to seeing him the next time. But 
just a couple of quick questions for each of you.
    First, Mr. McNulty, you addressed some of the same concerns 
that Ms. Moore and others have addressed in terms of spouses 
and their accessibility to some of the information provided in 
the TAP program, and one of the suggestions that I think 
someone made was to put the TAP manual on-line. Now you 
mentioned that currently the manual is on disk and that there 
are tapes available. Do you think that--is it on-line and 
should it be and do you think that that would help especially 
for remote access in states like South Dakota and Wyoming?
    Mr. McNulty. It is available on-line through NVTI, and I 
think having it on-line is certainly one way to provide it to 
people that are a long ways away. At Warren Air Force Base 
we've actually put the entire TAP Manual and all the handouts 
that anyone gives. It costs about 50 cents apiece to do those, 
and they've got everything that the presenters have given. Even 
when they go through it, they get that so that they can take it 
with them. It's easy to keep all that information, and it keeps 
them from having to try to write down all the things that 
presenters are giving. And so I think those are potentially 
things that could work anywhere in the country.
    Ms. Herseth. Thank you. And then, Mr. Brown, you provided a 
lot of very helpful information. I appreciate SBA being as 
involved as you are in the number of different outreach 
programs that you have, both short-term and long-term.
    In working with veteran entrepreneurs, how closely do you 
work the franchise businesses, franchise associations? That's 
something that we've addressed at the Subcommittee level in the 
past in terms of, again, the flexibility of opportunities 
available to veterans, particularly those that are 
entrepreneurs.
    Mr. Brown. Veterans we have found are really uniquely 
situated and prepared for entrepreneurship. They get military 
training and experience that prepares them in such a way that 
really years in other vocations could not. So they're, to a 
large extent, very viable candidates for immediate 
entrepreneurship. Franchises are an excellent way for people to 
get into business, vets and non-vets. We work very closely with 
any number of national franchise organizations. For instance, 
we maintain in coordination with Franchise Registry a listing 
of franchises that are approved by SBA for an accelerated 
process through our loan programs. Usually when we receive an 
application for a franchise, it has to be screened, and largely 
we do that to protect the individual who is trying to gain 
access to that franchise and the loan to buy and get into that 
franchise.
    There are some covenants that are sometimes very difficult 
to comply with and that fundamentally take away rights that we 
want to make sure that the borrowers do have. So we review 
every franchise in the nation to get onto that registry. If 
they are on the registry--if a franchise is on the registry, it 
receives automatic approval as a franchise for the application. 
So in other words, the application does not have to go through 
a secondary review to approve the franchise organization 
itself.
    So we work very closely, and that's a very viable way to 
move veterans into entrepreneurship.
    Ms. Herseth. Thank you. Mr. Fillman, good to see you again. 
Thank you for the work that you do. A couple of questions for 
you. First, if you might want to comment on Mr. Summerside's 
testimony as it relates to how do we more effectively, with 
participation by DOD and VA or the other partners here, utilize 
on-the-job training programs for veterans? If you wanted to 
comment on that as well as, I think, something similar that we 
heard today that we heard in Arkansas which is that there may 
be a difference as we look to the advantages and disadvantages 
of regionalization within the system and the impact of turnover 
as it relates to the different regional offices that our folks 
more locally are working with. And so if you might want to 
comment on any aspect of that testimony, and then the other 
thing I'd like you to address briefly is the VEAP decliner that 
was brought up in the first panel and what you see to be any 
sort of particularities that preclude those who may have 
declined their VEAP benefits in participating in these open 
windows of the past couple of defense re-authorizations.
    Mr. Fillman. Okay. I certainly think that we could probably 
be more involved in on-the-job training benefits. I think we 
have to get out in the communities to push those programs in 
efforts with the SAAs and those folks that really help us do 
that. It's an excellent program, and I just believe that not 
enough employees--employers are aware of the benefits of hiring 
veterans and I think they make excellent employees. They come 
readily trained, they have skills to offer, and I think it is 
an area that probably is under-utilized.
    I'm trying to remember now, the second part of your 
question was the results of turnover and this type of thing?
    Ms. Herseth. [Nodding head up and down.]
    Mr. Fillman. I think turnover is different in different 
parts of the country. St. Louis--as George was talking about, 
St. Louis has had some turnover this past year which created 
some problems earlier in the year for them. We were able to 
assist them in getting their work load back under control. 
They've also been authorized to hire over 25 people in the last 
60 days.
    They're also looking at being sure that those offices are 
able to fill positions as they lose or as they are able to 
anticipate upcoming retirements so that we can get staff on 
board so that there is not a loss of expertise to delay 
benefits. This group that we just hired in St. Louis will be on 
board and be trained and ready to go this fall enrollment so 
that hopefully there will not be some of the delays that they 
saw this past year in fall enrollment.
    With the declination of the VEAP program, each individual 
service man looks at this differently. In many cases, I'm not 
familiar with the reasons that the military would recommend to 
these people not to participate. I certainly think, as we look 
at the changes to the education program, if there's a way that 
we could include these people back in to give them the 
opportunity to use some education benefits that they missed. As 
our programs change over the years and evolve, we have done 
that in the past with areas that there weren't any groups of 
veterans who were not included, when we wrote a new law, we 
brought those people back into the program, and that is 
possibly something that we could do for those folks.
    Ms. Herseth. One last question, if I might.
    Mr. Smith, could you--just two short questions. If you 
could describe the current status of the claims work load at 
the Regional Office in Sioux Falls, and then in anticipation of 
next week's--or this week's hearing, I should say, and the 
other hearings we've had, I'm sure hopeful that your office is 
among those that the GAO or the Inspector General has found to 
be implementing effectively the recommendations of securing 
personal data, and perhaps you could talk just briefly about 
the steps that have been taken in the Regional Office in Sioux 
Falls before or since the news of some of the compromised data 
as it relates to the medical records.
    Mr. Smith. Sure, I'd be glad to. First of all, with the 
work load in Sioux Falls, we have had very good performance. 
We've been able to have support for staffing that we might need 
as far as changes and increases in our work load. Right now we 
are in the very top ten in the United States as far as claims 
processing. Our average days pending is right around 100 days 
and our average days to complete claims since October of this 
year to date is 129 days.
    We've been able to get good support, and I would like to 
comment saying that with our office in Sioux Falls, we could 
not achieve these results without the support of the national 
service officers, the State officers, the county veterans 
service officers, and the medical centers that complete our 
exams and provide us with the medical records.
    One of the things that you will find in the State of South 
Dakota is good cooperation and sharing of the resources and 
getting any of the information that we need. If you're talking 
about transitional assistance, I think this State is one of the 
model states that provides good care for our soldiers and 
Guardsmen, and we all work together for the one common goal.
    So one of the things that I've enjoyed, and I'm on 29 and a 
half years in the Sioux Falls office in medical processing, is 
that we are unique in that aspect in that we do good 
performance, sustained performance in that aspect.
    Along with that, I will now talk about some of the current 
issues that are stressful to everybody and that would be the 
securing of the reference data. We have had minor breaches, if 
you want to look at it that way, of data that's happened in the 
medical center medical releases. We have looked at our 
organization, both in VBA and VHA, to make sure that we have 
strong increased heightened awareness of this, and we have just 
completed two trainings with all of the entire staff on IT 
security and also physical security of the records themselves. 
We have taken steps to ensure that any offices that are off-
base have secured those records. We have discontinued using 
untrackable methods of moving our records back and forth. We 
are looking at encrypting laptops that are taken out in the 
field to process our work and also our email communication. All 
the data that would be going on is doing that.
    Today we are looking in the Sioux Falls office as far as 
having some additional minor construction to restrict access 
into areas where we have claims processing. In the past we've 
had pretty much open campuses to where veterans would walk 
over, come in and sit down and talk to us. With today's way of 
doing business, we have to reevaluate that and make sure that 
they still have the opportunity to come in and talk to us, but 
also not to have them--I should say restrict any of those areas 
where we do have that concern.
    Ms. Herseth. Thank you. Thank you, Mr. Chairman.
    Mr. Boozman. Mr. McNulty, have you seen an increase in 
USERRA claims, and can you comment on what's going on in that 
regard?
    Mr. McNulty. I haven't in my state. Earl Schultz did have a 
huge jump in claims because of a National Guard issue on past 
pay that when full-time National Guard people were required to 
use their own time rather than get 15 days off, he had, like, 
70 claims all at once. Those have pretty much all been resolved 
nationally. Last year in Wyoming I had one claim. Earl, I 
think, had about five or six.
    I think that it was mentioned earlier ESGR in these states 
do an excellent job. What we're trying to do up front is not 
only let the service member know that's leaving to sit down 
with their employer, fill out where they're going, what they're 
going to be doing, and also what they will expect or what they 
should get by law when they come back.
    We've also been doing a number of employer seminars 
statewide. Senator Enzi came back for one of them, but we're 
doing employer seminars so that most employers, if they're 
aware--a lot of them don't know there's a law that require them 
to re-employ the veteran. And we've found, and this may not be 
typical nationwide, but claims could be going up, but I think 
that if we do a better job up front of educating employers and 
the Guard and Reserve members on what their responsibilities 
are, that when they come back, there's a lot less problem. 
We've got employers that are, I mean, really impacted. We've 
got police departments in some towns that lose five police 
officers in a 30-man force all at once for a year and a half, 
and you can't just go out on the street and say, ``Well, we'll 
hire you and you can be a police officer.''
    So I think there's things that we can do, but it does have 
a huge impact on employers, and I think doing a better job up 
front by DOL and by ESGR and the Guard and Reserve of educating 
employers and their members and active duty personnel, too, 
that those will be reduced.
    Mr. Boozman. Thank you very much.
    Mr. McNulty. You're welcome.
    Mr. Boozman. Have you got anything, Ms. Herseth?
    Ms. Herseth. No.
    Mr. Boozman. I thank you all so much for being here and 
sharing your testimony. It really is appreciated. We've got 
some additional questions, without objection, that we'd 
appreciate your responding to. Again, thank you so much for the 
job that you're doing for veterans.
    We talked earlier about thanking people, about thanking 
employers, and as I look out, I know we've got a lot of 
veterans represented here and we really do appreciate your 
service. We appreciate all you've done for your country, and 
that's really what the Veterans Affairs Committee is all about. 
And we appreciate Ms. Herseth. Nobody's working any harder in 
Washington for veterans than she is, so we appreciate her 
stance in that regard.
    Also our panelists. They've done a great job. We've learned 
a lot. We've learned some new things, but reinforced some old 
things that we've heard at other places.
    Also I appreciate the community. It's been great. I'm from 
Arkansas so I guess what we'd call Southern hospitality has 
been very prevalent in this part of the country. A special 
thanks to Mr. Gerard Baker, the Superintendent at Mt. Rushmore, 
for giving us a great experience. Airman First Class Kyle 
Rosier, our driver, who's done a great job.
    Christine Galbraith, the Director of the Family Center, 
who's been showing us around. Mark Wheeler for our Base tour 
yesterday. Jeff Smith, the CO of the 28th. Colonel Bruce Emig, 
Vice Commander of the 28th. Our escorts Mark Ross and Andrea 
Miller. And then most importantly for Stephanie and me is our 
staff that really does make all of this happen. So we really 
appreciate Mike, Geoff and Devon and the local staff that's 
been here, Leif and Lesley. Thanks to all of you. Have you got 
anything you'd like to say, Stephanie?
    Ms. Herseth. Well, just a final comment. You know, I've 
been privileged to serve on the House Veterans Affairs 
Committee, and I appreciate the kind comments of the Chairman 
on how hard I've been working, but equally so as the leader of 
the Subcommittee and his participation in the full Committee is 
Chairman Boozman, and seeing that and seeing and having a 
chance to meet some of his constituents in the National Guard 
and others in his district a few months ago confirmed in my 
mind how fortunate I am to be able to work with him on this 
Subcommittee.
    At a number of different hearings, oftentimes when I'm 
posing questions to witnesses, they'll often gently remind me, 
although I don't necessarily need reminding, how great we're 
doing in South Dakota on particular issues. And I oftentimes 
raise those issues because I know what we're doing in South 
Dakota. I hope that we do serve as a model on a number of 
different things in serving veterans and the type of 
coordination we have among different agencies which is why I 
was so pleased that we could have a hearing here to make the 
record with some of our folks here in South Dakota and our 
friends in Wyoming that will join us to offer the type of 
testimony we heard today about the type of communication 
coordination that we do in leveraging limited resources, 
limited time, and sharing ideas and facilitating that exchange 
of information.
    I want to echo the thanks that the Chairman expressed to 
all those who have been part of our trip as well as to thank 
Colonel Smith and everyone here at Ellsworth Air Force Base for 
having us here. It is great to be here and to see folks that 
I've had a chance to work with on issues important to the Base 
as well as with our National Guard and Reserve leadership.
    And just to echo the thanks to our staff, Geoff Collver and 
Leif Oveson who work closely with me on issues for the 
Committee, and, of course, with Devon and Mike and Lesley 
Kandaras, my West River Director, and I know that we have 
Darrel Schumacher here from Senator Johnson's staff. So I 
appreciate everyone taking the time and their interest in the 
issues discussed today. Thank you again, Mr. Chairman.
    Mr. Boozman. The meeting is adjourned.
    [Whereupon, at 11:15 a.m., the subcommittee was adjourned.]

                                APPENDIX

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 



</pre></body></html>
